No. ______

In the Supreme

Court of the United States

__________________
ENCO SYSTEMS, INC.,
v.
DAVINCIA, LLC,
__________________

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
BRADLEY L. SMITH
Counsel of Record
ENDURANCE LAW GROUP PLC
133 W. Michigan Ave.
Suite 10
Jackson, MI 49201
(517) 879-0253
bsmith@endurancelaw.com
Counsel for Petitioner

September 20, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
ENCO owns and practices a patent for a system and
method for automatically converting human speech
carried in an audio-visual signal into the text captions
that appear on one’s TV screen. The Federal Circuit
ruled that the invention was not eligible for patent
protection under 35 U.S.C. § 101 because it was
allegedly directed to an abstract idea. The single
question presented is:
What is the appropriate standard for
determining whether a patent claim is directed
to a patent-ineligible concept when determining
whether an invention is eligible for patenting
under 35 U.S.C. § 101?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner ENCO Systems, Inc. has no parent
corporation. No publicly held company owns 10% or
more of the corporation’s stock.

iii
RELATED PROCEEDINGS
The following proceedings are directly related to
this case within the meaning of Rule 14.1(b)(iii):
• ENCO Systems, Inc. v. DaVincia, LLC, Case No.
1:19-cv-00039 (E.D. Mo.) judgment entered
March 20, 2020, rehearing denied May 5, 2020.
• ENCO Systems, Inc. v. DaVincia, LLC, Case No.
20-1995 (Fed. Cir.), judgment entered March 8,
2021, rehearing denied April 23, 2021.

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
I.

A Brief History of the Court’s Recent
Eligibility Tests for Process Claims . . . . . . . . 6
A. Pre-Bilski Legal Background . . . . . . . . . . . 6
B. B i l s k i
and
the
Machine-orTransformation Test . . . . . . . . . . . . . . . . . 7
C. The Alice/Mayo Test . . . . . . . . . . . . . . . . . 9

II.

The Facts in This Case . . . . . . . . . . . . . . . . . 11
A. Background of the ‘191 Patent . . . . . . . . 11
B. Summary of Proceedings Below . . . . . . . 13
1. The District Court’s Dismissal for
Ineligibility . . . . . . . . . . . . . . . . . . . . . 13
2. The PTAB Denies DaVincia’s Petition
for Inter Partes Review . . . . . . . . . . . . 13

v
3. The Federal Circuit Affirms . . . . . . . . 14
REASONS FOR GRANTING THE PETITION . . . 16
I.

Current Conditions are Causing Great Harm
to the Patent System . . . . . . . . . . . . . . . . . . . 16

II.

The ‘191 Patent is the right case to revisit
eligibility for four reasons . . . . . . . . . . . . . . . 17
A. The level and nature of technology in this
patent is superior for reviewing section
101 eligibility.. . . . . . . . . . . . . . . . . . . . . . 17
B. Resolving the abstract idea exception is
more urgent . . . . . . . . . . . . . . . . . . . . . . . 18
C. Eligibility is squarely presented . . . . . . . 18
D. The Court of Appeals reached the wrong
result. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

III.

This case would be an excellent companion
case to American Axle . . . . . . . . . . . . . . . . . . 21

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
APPENDIX
Appendix A

Opinion in the United States Court
of Appeals for the Federal Circuit,
2020-1995
(March 8, 2021) . . . . . . . . . . . . App. 1

vi
Appendix B

Memorandum and Order in the
United States District Court
Easter District of Missouri
Southeastern Division, Case No.
1:19-cv-00039-SNLJ
(March 20, 2020) . . . . . . . . . . App. 12

Appendix C

Order of Dismissal in the United
States District Court Eastern
District of Missouri Southeastern
Division, Case No. 1:19-cv-00039SNLJ
(March 20, 2020) . . . . . . . . . . App. 24

Appendix D

Memorandum and Order in the
United States District Court
Eastern District of Missouri
Southeastern Division, Case No.
1:19-cv-00039-SNLJ
(May 5, 2020) . . . . . . . . . . . . . App. 26

Appendix E

Order on Petition for Panel
Rehearing in the United States
Court of Appeals for the Federal
Circuit, 2020-1995
(April 23, 2021) . . . . . . . . . . . App. 32

vii
TABLE OF AUTHORITIES
CASES
Alice Corp. Pty. Ltd. v. CLS Bank Intern.,
134 S. Ct. 2347 (2014). . . . . . . . . . . . . . . . . passim
American Axle & Manufacturing, Inc. v. Neapco
Holdings, LLC, et al., case no. 20-891 (petition
filed December 28, 2020) . . . . . . . . . . . . . . passim
Bilski v. Kappos,
561 U.S. 593 (2010). . . . . . . . . . . . . . . . . . . passim
Diamond v. Chakrabarty,
447 U.S. 303 (1980). . . . . . . . . . . . . . . . . . . . . . . . 6
Diamond v. Diehr,
450 U.S. 175 (1981). . . . . . . . . . . . . . . . . . . . . . . . 7
Funk Bros. Seed Co. v. Kalo Inoculant Co.,
333 U.S. 127 (1948). . . . . . . . . . . . . . . . . . . . . . . . 6
Gottschalk v. Benson,
409 U.S. 63 (1972). . . . . . . . . . . . . . . . . . . . . . . 6, 7
In re Bilski,
545 F.3d 943 (Fed. Cir. 2008) . . . . . . . . . . . . . . . . 8
Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66 (2012) . . . . . . . . . . passim
Pennock v. Dialogue,
27 U.S. (2 Pet.) 1 (1829) . . . . . . . . . . . . . . . . . . . 20
Prometheus Laboratories v. Mayo Collaborative
Services, 628 F.3d 1347 (Fed. Cir. 2010) . . . . . . . 9

viii
CONSTITUTION AND STATUTES
U.S. Const. Art. 1, § 8 . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
35 U.S.C. § 101 . . . . . . . . . . . . . . . . . . . . . . . . . passim
35 U.S.C. § 102 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
35 U.S.C. § 103 . . . . . . . . . . . . . . . . . . . . . 4, 13, 14, 18
35 U.S.C. § 112 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 19
35 U.S.C. §§ 311-319 . . . . . . . . . . . . . . . . . . . . . . . . 14
OTHER AUTHORITIES
Donald S. Chisum, “The Supreme Court’s Alice
Decision on Patent Eligibility of
Computer-Implemented Inventions: Finding an
Oasis In the Desert,” available at
https://patentlyo.com/patent/2014/06/eligibility
implemented-inventions.html . . . . . . . . . . . . . . 20
European Patent Convention, Part II, Ch. 2,
Article 52 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Hikma Pharmaceuticals USA Inc. v. Vanda
Pharmaceuticals Inc., Case No. 18-817, Brief for
the United States . . . . . . . . . . . . . . . . . . . . . 16, 20
HP Inc. v. Berkheimer, Case no. 18-415, Brief for
the United States . . . . . . . . . . . . . . . . . . . . . 16, 19

1
OPINIONS BELOW
The Federal Circuit’s opinion (App. 1-11) is reported
at 845 F. App’x 953 (Fed. Cir. 2021). The Federal
Circuit’s order denying panel rehearing (App. 32-33) is
unreported. The opinion of the District Court granting
DaVincia’s motion to dismiss (App. 12-23) is reported
at 447 F. Supp. 3d 916 (E.D. Mo. 2020).
JURISDICTION
The Federal Circuit entered judgment on March 8,
2021 and denied panel rehearing on April 23, 2021.
App. 1, 32. This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1).
On March 19, 2020, the Court extended the time to
file a petition for a writ of certiorari to 150 days from
the date of the lower-court order denying a timely
petition for rehearing. That order extended the
deadline for filing this petition to September 20, 2021.
STATUTORY PROVISION
“Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent
therefor, subject to the conditions and
requirements of this title.” 35 U.S.C. § 101.
INTRODUCTION
Since the Alice/Mayo cases, scores of patent
litigants have petitioned the Court to clarify or reform
the test for § 101 patent eligibility. Three former
USPTO directors, the Solicitor General’s office, and

2
every judge on the Federal Circuit have bemoaned the
impractical application and seemingly arbitrary
outcomes reached under the Alice/Mayo test. In a rare
display of bipartisanship, lawmakers from both parties
have warned that current eligibility jurisprudence does
not promote the progress of science and the useful arts
but instead discourages investment in critical emerging
technologies. Formulating a clear eligibility rule is
critical to the health of our patent system and, more
broadly, to our innovation-based economy.
The Court’s difficult task of devising a workable
eligibility test is complicated by the technology involved
in most of the section 101 petitions submitted.
Eligibility cases frequently involve information data
processing, computer networks and sophisticated
biological processes. Complex technologies compound
the conceptual challenges surrounding eligibility, and
may be so encumbered by case-specific facts that the
Court’s analysis has limited applicability.
The Court has called for views of the Solicitor
General regarding the petition for writ of certiorari
filed in American Axle & Manufacturing, Inc. v. Neapco
Holdings, LLC, et al., case no. 20-891 (filed December
28, 2020). In that case, a sharply divided Federal
Circuit largely affirmed the district court’s decision
that claims directed to a process of reducing vibration
in a vehicle drive shaft were not patent eligible because
they were directed to a natural law. American Axle
involves relatively straightforward mechanical
technology and is a good vehicle for revisiting the
Alice/Mayo test. This case, however, is a better
candidate.

3
The single patent at issue in this petition, US
7,047,191 (‘191 Patent), claims a method and system
for providing automated captioning for AV signals,
such as those displayed at the bottom of one’s television
screen. It arose from the inventors’ patent application
filed over 20 years ago, in March 2001. The ‘191 Patent
is ideal to serve as the subject patent for reassessing
the Alice/Mayo eligibility test for at least four reasons.
First, the complexity level of the technology and the
nature of that technology are especially well-suited for
reviewing section 101 eligibility. The system and
process claims involve electronic audio-visual signals,
some AV processing equipment and a computer, but
the technology does not require a technology tutorial
nor any outside study to comprehend it. Everyone is
familiar with the captions that are viewable at the
bottom of a television screen. At the same time, any
opinion issued by the Court will have broad
applicability. Because the patent involves automation,
computers, communications devices and processing of
electronic signals, it will be easier for lower court
judges, the USPTO, and the patent bar to apply the
Court’s analysis and reasoning to many important and
more esoteric inventions, particularly patents involving
computers, communications, data processing, and
automation of human tasks by a computer.
Second, the abstract-idea exception implicated in
this case is more commonly encountered by judges and
patent examiners than the other two judicial
exceptions. The sheer volume of affected inventions
makes review of the abstract idea exception more

4
urgent compared to, for example, the law-of-nature
exception.
Third, this case is superior because eligibility is
squarely presented without collateral issues that might
impact the analysis. While the parties were litigating
this case, the USPTO denied DaVincia’s petition for
inter partes review challenging the validity of the
patent as obvious under 35 U.S.C § 103. Unlike
patents considered in earlier eligibility cases such as
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66 (2012), the Court can confidently assume
that the patent is not anticipated (§ 102) is not obvious
(§ 103) and is sufficiently described and enabled in the
specification (§ 112). The Court may focus on eligibility
with confidence that the claims meet all the other
statutory criteria for patentability.
Fourth, the Federal Circuit reached the wrong
result. The ‘191 Patent claims a system and method of
solving a technological problem using physical
components executing defined steps to produce a
tangible result. Characterizing the claims as directed
to “an abstract idea” robs that phrase of all meaning.
If that court’s flawed reasoning is not addressed here,
it will persist in its misguided approach and propagate
further mischief. Indeed, despite being designated
nonprecedential, district courts have begun citing the
Federal Circuit’s opinion to support ineligibility
decisions.
If the Court grants ENCO’s petition for certiorari,
ENCO will echo arguments made by the United States
in petition-stage briefing in other eligibility cases that
the Court should follow a more textual and

5
contextualized approach, similar to that advocated by
the four-justice concurrence in Bilski v. Kappos, 561
U.S. 593 (2010), or a test that heavily factors whether
the invention is directed to solving a technological
problem, such as the machine-or-transformation test
prescribed by Judge Michel in his opinion for the
Federal Circuit sitting en banc in that same case.
The Bilski majority expressed concern that an
inflexible machine-or-transformation test could
foreclose eligibility for some process inventions that
could take many forms as technology rapidly advanced.
Ironically, the Alice/Mayo eligibility test has resulted
in the rejection or invalidation of many hundreds more
patents than if those inventions had been evaluated
under the machine-or-transformation test. If the only
problem were overly restrictive eligibility standards,
the patent community could adjust and tolerate it.
Much more damaging – and discouraging to inventors,
the patent bar, patent examiners, and judges who must
adjudicate eligibility – is the unpredictable and
irreconcilable case law that the Alice/Mayo test has
spawned at the Federal Circuit.
This case would be an ideal companion to American
Axle & Manufacturing, Inc. v. Neapco Holdings, LLC,
et al., case no. 20-891 (petition filed December 28,
2020), which concerns eligibility of a patent claiming a
method of reducing vibration in an automotive drive
shaft, purportedly because it is directed to a natural
law. If the Court grants the petition for writ of
certiorari in American Axle but does not grant ENCO’s
petition, then this petition should be held pending the

6
Court’s decision in American Axle then disposed of as
appropriate.
STATEMENT OF THE CASE
I.

A Brief History of the Court’s Recent
Eligibility Tests for Process Claims.
A. Pre-Bilski Legal Background.

“Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the conditions
and requirements of this title.” 35 U.S.C. § 101.
Congress purposefully cast the provision “in broad
terms to fulfill the constitutional and statutory goal of
promoting ‘the Progress of Science and the useful
Arts.’” Diamond v. Chakrabarty, 447 U.S. 303, 315
(1980), citing U.S. Const. Art. 1, § 8. This Court has
recognized “three specific exceptions to § 101’s broad
patent-eligibility principles: ‘laws of nature, physical
phenomena, and abstract ideas.’” Bilski v. Kappos, 561
U.S. 593, 601 (2010) (quoting Chakrabarty, 447 U.S. at
309). These are the “basic tools of scientific and
technological work,” Gottschalk v. Benson, 409 U.S. 63,
67-68 (1972), “free to all men and reserved exclusively
to none,” Funk Bros. Seed Co. v. Kalo Inoculant Co.,
333 U.S. 127, 130 (1948). The three exceptions denied
eligibility to two different but related types of
inventions.
First, a patent that expressly claimed a law of
nature, physical phenomenon, or abstract idea was
ineligible, no matter how important the discovery.
That conclusion followed directly from the text of

7
Section 101, since neither E=mc2 nor the law of gravity
is a “process, machine, manufacture, or composition of
matter.” 35 U.S.C. § 101. Second, a patent that
ostensibly claimed patent-eligible subject matter, such
as a machine or process, was nonetheless invalid if, in
“practical effect,” the patent would “wholly pre-empt”
the public’s access to unpatentable subject matter and
operate as “a patent on the [idea or phenomenon]
itself.” Benson, 409 U.S. at 71-72. The pre-emption
concern was not implicated, however, if an inventor
claimed a “process which, when considered as a whole,
is performing a function which the patent laws were
designed to protect (e.g., transforming or reducing an
article to a different state or thing).” Diamond v.
Diehr, 450 U.S. 175, 192 (1981). In other words, the
mere fact that the invention exploited a law of nature,
an abstract idea, or physical phenomenon, as all
human endeavors must at some level, did not
disqualify it under Section 101.
B. B i l s k i
and
the
Transformation Test.

Machine-or-

Around 20 years ago the USPTO began receiving
many more patent applications for business methods
and other “non-technical” inventions, many exploiting
the capabilities of the internet and faster computers.
Bernard Bilski was unhappy that the USPTO had
denied him a patent for a method of hedging risk in
commodities trading, rejecting his claims as ineligible
under section 101. In 2008, the Federal Circuit
announced a clear eligibility rule: “A claimed process
is surely patent-eligible under § 101 if: (1) it is tied to
a particular machine or apparatus, or (2) it transforms

8
a particular article into a different state or thing.” In
re Bilski, 545 F.3d 943, 954 (Fed. Cir. 2008) (en banc).
The case produced five opinions. One dissent argued
that the majority’s eligibility test was too liberal and
forcefully urged that a proper reading of § 101 confined
process claims only to claims directed to advances in
science or technology. 545 F.3d at 1009 (Mayer, J.
dissenting). Two other dissents argued that the
machine-or-transformation test was too limiting. 545
F.3d at 976, 1011 (Newman & Rader, JJ, dissenting).
The Federal Circuit’s majority opinion adopted a
middle position.
On appeal, this Court commended the exceptional
scholarship reflected in the five opinions and
recommended them for close study. Bilski, 561 U.S. at
600. All nine Justices agreed that the machine or
transformation test was a “useful and important” or
even “critical” clue for eligibility, Bilski, 561 U.S. at 604
(“useful or important clue” (majority opinion)); id. at
614 (“critical clue,” Stevens, J., concurring); id. at 658
(“the clue,” Breyer, J. concurring, emphasis in original).
However, a five-justice majority rejected the Federal
Circuit’s reliance on the machine-or-transformation
question as the exclusive test of eligibility. See id. at
593 (delivering opinion of the Court except as to
sections II-B-2 and II-C-2). The Court held that the
machine-or-transformation test was not the sole test of
eligibility and rejected the Federal Circuit’s implicit
reliance on traditional patent-law understandings of
the term “process” (or the Framers’ conception of the
“useful Arts”) as requiring a machine or
transformation.
Rather, the Court stated that
“process” and section 101’s other terms should bear

9
their general-purpose “dictionary definitions.” Id. at
601-03. The Court concluded that Mr. Bilski’s method
claims were “attempts to patent abstract ideas,” id. at
609, but expressly declined to prescribe any other
eligibility standard. “The patent application here can
be rejected under our precedents on the unpatentability
of abstract ideas. The Court, therefore, need not define
further what constitutes a patentable ‘process,’ beyond
pointing to the definition of that term provided in
§ 100(b) and looking to the guideposts in Benson, Flook,
and Diehr.” Id. at 612.
C. The Alice/Mayo Test.
In a separate eligibility case that this Court had
remanded for review in light of Bilski, the Federal
Circuit applied the machine-or-transformation test to
a method of treating a patient with a man-made drug.
The Court of Appeals confirmed its earlier ruling that
the method of treatment was eligible, notwithstanding
the fact that the critical process step for determining
optimal drug dosage and efficacy involved measuring
“natural” metabolite levels in the patient. Prometheus
Laboratories v. Mayo Collaborative Services, 628 F.3d
1347, 1355 (Fed. Cir. 2010) (remarking that the “useful
and important clue, an investigative tool,” leads to “a
clear and compelling conclusion” of patent eligibility).
This Court unanimously reversed and held the patent
claims ineligible. Mayo Collaborative Services, v.
Prometheus Laboratories, Inc., 566 U.S. 66 (2012). It
reviewed the technology involved in the patent and
cited its earlier opinions to find that a critical step in
the claimed process – measuring the metabolite levels
in the blood to determine appropriate dosage levels of

10
the therapeutic drug – was directed to application of a
natural law. The Court barely discussed the machineor-transformation test that it had endorsed in Bilski
only two years prior. “[I]n stating that the ‘machine-ortransformation’ test is an ‘important and useful clue’ to
patentability, we have neither said nor implied that the
test trumps the ‘law of nature.’” Mayo, 566 U.S. at 88.
Two years later, the Court attempted to resolve the
confusion arising from its inconsistent analytical
approaches in Bilski and Mayo. In Alice Corp. Pty. Ltd.
v. CLS Bank Intern., 134 S. Ct. 2347 (2014), the Court
again confronted multiple opinions from the Federal
Circuit which, sitting en banc, had ruled that a method
and system of mitigating settlement risk in financial
transactions using a computer was not eligible for
patent.
This Court affirmed, distilling Mayo’s
eligibility analysis to a two-step test. At Step 1, the
court must “determine whether the claims at issue are
directed to a patent-ineligible concept.” Alice, 134 S.
Ct. at 2355. If a claim is not “directed to” any of the
three ineligible concepts, it is eligible. Claims that are
directed to an ineligible concept may nevertheless be
eligible after a second step analysis. At Step 2, the
court must “consider the elements of each claim both
individually and ‘as an ordered combination’ to
determine whether the additional elements ‘transform
the nature of the claim’ into a patent eligible
application.” Alice, 134 S. Ct. at 2355 (quoting Mayo,
132 S. Ct. 1289). To constitute an “inventive concept,”
the claim limitations must involve more than
performance of “well-understood, routine, [and]
conventional activities previously known to the
industry.” Alice, 134 S. Ct. at 2359.

11
In the seven years since Alice, USPTO examiners
and Article III judges have all struggled to apply the
Court’s two-step test. Courts and patent examiners
rarely employ the machine-or-transformation test
except occasionally to confirm an eligibility
determination reached via the Alice/Mayo test. No one
is happy, excepting large high-tech enterprises which
have exploited the confusion and tightening eligibility
restrictions as a means of invalidating or substantially
devaluing competing patents. Few have failed to note
that the Court has ruled against eligibility in all its
recent cases, unanimously in Mayo. Today the Federal
Circuit issues arbitrary rulings seemingly more
dependent on the composition of the panel assigned
than the facts of the case. Lawmakers, scholars,
inventors, the patent bar, and former directors of the
Patent Office uniformly decry the current state of
eligibility law.
II.

The Facts in This Case.
A. Background of the ‘191 Patent

ENCO manufactures and sells automated audiovisual (“AV)” captioning equipment for television
broadcasters and other forms of transmitted AV
signals. (District Ct. Opinion, App. 12-13). ENCO
owns and utilizes in its products the ‘191 Patent
“Method and System for Providing Automated
Captioning for AV Signals.” Id. In March 2019, ENCO
filed suit against its direct competitor, DaVincia, LLC,
alleging patent infringement. Id.
The ‘191 Patent describes an AV captioning system
10 which includes a speech-to-text processing system

12
20, a signal separation processing system 30, an
encoder 40, a video camera 50, and a display device 60,
as shown at App. 13 and in the figure below. All of
these components, as well as the overall AV Captioning
System, are “machines” in terms of section 101.

The patent has three independent claims covering a
method (claim 1), system (claim 8) and a data medium
(claim 15) for automatically inserting captions into AV
signals and 18 dependent claims. Dist. Ct. Op., App.
13.
Claim 1 articulates eight steps, each step
containing limiting elements to accomplish improved
automated captioning. App. 3. The independent
claims recite or imply several physical components
including (1) a speech-to-text processing system that
converts spoken words into text and processes the text
into caption data; (2) an encoder that associates the
caption data with the AV signal; and (3) a device to

13
display the AV signal with the associated caption data.
Id.
More succinctly, the patent claims a new system
and method of automatically producing the captions
that optionally appear on one’s television screen – a
valuable service used and appreciated by tens of
millions of people daily.
B. Summary of Proceedings Below.
1. The District Court’s Dismissal for
Ineligibility.
The district court dismissed ENCO’s complaint with
prejudice, holding that the patent was directed to an
abstract idea under Alice Step 1 because it merely
assembled a collection of conventional computer
components to replace humans with the coupledtogether result. App. 19. The district court held that
the claims were not saved at Alice Step 2 seemingly
based on the same reason as Step 1 – that that the
claim was based on “interchangeable components and
interchangeable composition of those components.”
App. 21. The district court denied ENCO’s motion for
reconsideration. App. 26.
2. The PTAB Denies DaVincia’s Petition
for Inter Partes Review
While the case was pending at the district court,
DaVincia petitioned the Patent Trial and Appeal Board
for administrative inter partes review of all 21 claims in
the ‘191 Patent, asserting the patent was invalid on
grounds of obviousness under 35 U.S.C. § 103.
DaVincia, LLC v. ENCO Systems, Inc., case no.

14
IPR2020-00690 (PTAB).1 DaVincia supported its 69page IPR petition with dozens of prior art references
and a 229-page declaration by its expert. In midSeptember 2020, the Board released a detailed 68-page
decision addressing each of DaVincia’s grounds for
invalidation. The three Administrative Patent Judges
unanimously ruled that DaVincia had shown no
reasonable likelihood of prevailing on its arguments
that any of the 21 challenged claims were obvious
under § 103 and denied DaVincia’s petition. Cf. Appeal
Op., App. 10 (acknowledging PTAB’s denial of IPR).
3. The Federal Circuit Affirms.
The Federal Circuit affirmed the district court’s
ruling that the ‘191 Patent claimed an ineligible
abstract idea but used a different rationale, stating
that it was the automation of a task previously
performed by humans that was the ineligible abstract
idea:
In this case, claim 1, together with the
specification, makes clear that the focus of the
claimed advance is simply the abstract idea of
automating the AV-captioning process. That
process, consisting of converting audio to text
and associating the text with corresponding
video, is not itself asserted to be an advance over
the prior art. The focus is not any specific

1

See generally 35 U.S.C. §§ 311-319 (authorizing post-issue
reexamination of patents). The Federal Circuit took judicial notice
of the IPR proceedings. App. 10. The opinion denying the petition
and other docket entries are accessible at https://ptab.uspto.gov/#
/login.

15
improved computer techniques for performing
those functions—functions intrinsic to the
concept of AV captioning — but simply the use of
computers to “conserve human resources” by
automating work otherwise performed through
human labor.
Federal Cir. Op., App. p. 7. The Federal Circuit further
held that the claims in the ‘191 Patent failed Alice at
Step 2, i.e., the claims did not include additional
features to ensure that they were “more than a drafting
effort designed to monopolize the abstract idea.” Alice,
134 S.Ct. at 2357 (internal edits omitted):
The claims also fail under the second step of the
Alice framework because they do not set forth an
inventive concept that would transform their
subject matter into something more than the
abstract idea. The claims do not incorporate
anything more beyond conventional computing
hardware and software, which do not transform
the subject matter into an eligible application of
the abstract idea. The specification, with respect
to each part of the system, including the audioto-text conversion, explains that “conventional”
components and techniques can be used.
Federal Cir. Op., App. pp. 9-10. ENCO petitioned for
panel rehearing, arguing that the court’s opinion
misapplied its precedent concerning the eligibility of
claims that automate a task, and that in any event the
‘191 Patent used new and nonobvious techniques to
accomplish the claimed automation. The Federal
Circuit denied rehearing. App. 32.

16
REASONS FOR GRANTING THE PETITION
I.

Current Conditions are Causing Great
Harm to the Patent System.

The Court is acutely aware of the loud and insistent
calls from every quarter for a clear and workable
eligibility test. The absence of any coherent standards
under the Alice/Mayo test has become intolerable.
American Axle’s petition well describes the chaotic
state of the law. See American Axle petition, case no.
20-891, pp. 27-33 (Dec. 28, 2020) (“The entire patent
system is calling for guidance from the Court”). In
addition to pleas from every current and many former
judges on the Federal Circuit, especially compelling are
the two most recent responses to CVSG invitations, in
which the government urges resolution of the confusion
and uncertainty. “The confusion created by this
Court’s recent Section 101 precedents warrants review
in an appropriate case,” Hikma Pharmaceuticals USA
Inc. v. Vanda Pharmaceuticals Inc., Case No. 18-817,
Brief for the United States at 8. “[T]his Court’s recent
decisions have fostered uncertainty concerning those
substantive Section 101 standards. . . . The Court
should grant review in an appropriate case to clarify
the substantive Section 101 standards.” HP Inc. v.
Berkheimer, Case no. 18-415, Brief for the United
States at 10.
The question is not whether the Court will review
its eligibility test, but which case it will choose as its
vehicle.

17
II.

The ‘191 Patent is the right case to revisit
eligibility for four reasons.
A. The level and nature of technology in
this patent is superior for reviewing
section 101 eligibility.

Both the level and type of technology involved are
ideal. On the one hand, the technology underlying the
patent claims is relatively straightforward and not
difficult to comprehend.
Indeed, the invention
produces a result – captioning – that is familiar to
everyone. Thus the Court can devote its energy and
analysis to the daunting conceptual challenges of
patent eligibility without laboring to understand and
describe the invention to its audience. Likewise, the
simpler technology will facilitate application of the
Court’s analysis to other diverse and more complicated
fields, e.g. by judges and patent examiners. Common
law is better when made from simple facts.
On the other hand, the ‘191 Patent involves
computers, software, electronic signal processing,
communications devices, and automation of a task
previously performed by humans. Inventions with
these features comprise a large percentage of
section 101 cases currently challenging the USPTO and
the courts. To the extent the Court’s analysis
addresses these aspects of ENCO’s patent, its opinion
may swiftly resolve eligibility of thousands of
information technology inventions, ranging from
autonomous vehicles to facial detection devices. The
level and nature of the technology in the ‘191 Patent
hits the sweet spot.

18
B. Resolving the abstract idea exception is
more urgent.
This case centers on the eligibility exception that
almost certainly is the most frequently contested. The
other two judicial exceptions, Laws of Nature and
Natural Phenomena, are extremely important and
deserve the Court’s explication. But defining the
contours of these will not have the reach or import of a
case resolving the test for an abstract idea. For the
same amount of intellectual work, clarifying or
reformulating the eligibility test for claims supposedly
directed to an abstract-idea will resolve more cases
than grappling with the other two exceptions.
C. Eligibility is squarely presented.
The ‘191 Patent has no other validity issues to
distract from or interfere with the section 101 analysis.
It recently survived a rigorous post-issue challenge that
its claims were obvious and therefore invalid. The
Patent Trial and Appeal Board rejected DaVincia’s
petition for inter partes review, issuing a very thorough
68-page decision finding no reasonable likelihood that
DaVincia could show that any of the patent’s 21 claims
were invalid as obvious (35 U.S.C. § 103). DaVincia,
LLC v. ENCO Systems, Inc., case no. IPR2020-00690
(PTAB Sept 16, 2020).
This aspect is significant because the Court has
approved consideration of section 103 obviousness as
part of its eligibility analyses. “Purely conventional or
obvious” steps are “normally not sufficient to transform
an unpatentable law of nature into a patent-eligible
application of such a law.” Mayo, 566 U.S. at 79 (some

19
internal edits omitted). Nor is adequacy of the
specification (enablement) an issue in this case (35
U.S.C. § 112). Because there is no genuine issue that
the ‘191 Patent claims meet all other statutory criteria
(i.e. useful, new, not conventional/obvious, and
enabled), the Court can focus exclusively on answering
whether the law allows an inventor to patent an
invention for automatically providing captions to AV
signals. Cf. Berkheimer, Brief for the United States,
supra, at 14 (remarking on parties’ dispute concerning
scope of invention and § 112 enablement issues, “the
Court should await an appropriate case that properly
presents those broader [eligibility] questions without
similar obstacles.”).
D. The Court of Appeals reached the wrong
result.
Many petitioners, including American Axle, have
called the Court’s attention to the clear and troubling
trend at the Federal Circuit of tightening patent
eligibility. The case law builds upon itself like a
ratchet, with the three eligibility exceptions becoming
ever more expansive as the “logic” from previous cases
is extended. This case is at least as troubling as any
recent eligibility petition. For the first time, claims
that expressly recite several components of physical
machinery, utilized to transform a physical thing,
including steps detailing new and nonobvious ways to
automate a tedious task previously performed by
humans, has been ruled an abstract idea.
If the claims are assessed under the machine-ortransformation test, which the Court endorsed in 2010
as a useful and important clue for eligibility, the claims

20
are clearly eligible. They recite physical components of
machinery and apparatus, transformation of electronic
signals (by adding caption data to the AV signal) and
transformation the television display itself (by adding
captions to the visible display).
If assessed under a “technological arts” test, which
was vague but in practice widely acknowledged prior to
Bilski, the claims are certainly eligible because they
are indisputably addressed to the technology of
processing AV signal data. In that same vein,
Professor Chisum has suggested a safe harbor rule if a
claim “is directed to a solution of a technological
problem.” Donald S. Chisum, “The Supreme Court’s
Alice Decision on Patent Eligibility of ComputerImplemented Inventions: Finding an Oasis In the
Desert,” available at https://patentlyo.com/patent/2014/
06/eligibility-implemented-inventions.html (accessed
September 16, 2021).
The European Patent
Convention similarly requires that an invention be
“susceptible of industrial application” for eligibility.
European Patent Convention, Part II, Ch. 2, Article 52
(Patentable Inventions). Perhaps most significant, the
United States advocates for “interpreting Section 101’s
terms in light of statutory context, history, and
constitutional purpose.” Hikma, Case No. 18-817, Brief
for the United States, supra, at 21. “That context
includes the fact that Section 101 implements the
Intellectual Property Clause, the main object of which
is to promote the progress of science and useful arts.”
Id. at 20, citing Pennock v. Dialogue, 27 U.S. (2 Pet.) 1,
19 (1829) (Story, J.) (some citations and internal edits
omitted).

21
Patents in fields such as information technology,
computer software, and business methods are hard
cases because they lie at the periphery of patentable
subject matter. This is not such a case. The ‘191
Patent claims a physical system comprising physical
components that transforms spoken words from the
audio signal into caption text data inserted into the
visual signal. The transformed AV signal is received by
a television that displays a transformed picture
including captions. Under any test conceived before
2012, the claimed systems and processes are patent
eligible.
III.

This case would be an excellent companion
case to American Axle.

The Federal Circuit here held that a system
directed to automating a human task is an
unpatentable abstract idea. “[T]he focus of the claimed
advance is simply the abstract idea of automating the
AV-captioning process.” Fed. Cir. Opinion, App. p.7.
But thousands of patents have been issued for
inventions that automate tiresome and repetitive
human tasks, from Eli Whitney’s cotton gin, to
programmable home thermostats, to self-driving cars.
The same court in American Axle applied the “law of
nature” exception and held that a manufacturing
process that reduced vibration in a motor vehicle drive
shaft was ineligible. By considering the ‘191 Patent
and the patent at issue in American Axle at the same
time, the Court can fashion a coherent test that
produces the desired result in both cases, despite the
disparate technologies and eligibility exceptions
involved. Applying the new/reformed test to two

22
patents would produce broadly applicable guidance to
resolve many more eligibility questions than reviewing
either case alone.
CONCLUSION
The Court should grant certiorari in this case
irrespective of whether it grants the petition in
American Axle. If the Court grants only American
Axle’s petition, it should hold this petition pending the
Court’s decision in that case then dispose of it as
appropriate.
Respectfully submitted,
BRADLEY L. SMITH
Counsel of Record
ENDURANCE LAW GROUP
133 W. Michigan Ave.
Suite 10
Jackson, MI 49201
(517) 879-0253
bsmith@endurancelaw.com
Counsel for Petitioner
September 20, 2021

